                                                                           Office of Inspector General
  DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Office of Audit Services

                                                                           Region VII
                                                                           601 East 12th Street
                                                                           Room 0429
                                                                           Kansas City, Missouri 64106


October 13, 2009

Report Number: A-07-09-00297

Mr. Brian Fitzpatrick
Director Internal Audit
Blue Cross Blue Shield of Montana
404 Fuller Avenue
Helena, Montana 59604

Dear Mr. Fitzpatrick:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Supplemental Executive Retirement Plan Costs
Claimed for Medicare Reimbursement by Blue Cross Blue Shield of Montana for Fiscal Years
1994 Through 2007.” We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00297
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Brian Fitzpatrick

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


    REVIEW OF SUPPLEMENTAL
EXECUTIVE RETIREMENT PLAN COSTS
     CLAIMED FOR MEDICARE
       REIMBURSEMENT BY
   BLUE CROSS BLUE SHIELD OF
         MONTANA FOR
          FISCAL YEARS
      1994 THROUGH 2007



                        Daniel R. Levinson
                         Inspector General

                          October 2009
                          A-07-09-00297
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Montana (Montana) administered Medicare Part A and Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) until the contractual relationship was terminated November 30, 2006.

Montana sponsors a Supplemental Executive Retirement Plan (SERP) which is maintained
primarily to provide deferred compensation to a select group of management or highly
compensated employees. The SERP is a nonqualified pension plan designed to restore benefits
lost due to the Internal Revenue Code limits under the regular qualified plan. Montana claimed
SERP costs for Federal reimbursement on a pay-as-you-go basis.

CMS reimburses a portion of its contractors’ SERP costs. In claiming SERP costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards (CAS) as required by the Medicare contracts.
To be allowable for Medicare reimbursement, pension costs must be (1) measured, assigned, and
allocated in accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the
FAR.

Following the close of each fiscal year (FY), Montana submitted a Final Administrative Cost
Proposal (FACP) to CMS reporting the administrative costs of performing Medicare functions
during the year. The SERP cost is part of the administrative cost of performing Medicare
functions and, as such, can be claimed on each FY’s FACP. In addition, Montana executed
closing agreements with CMS for the purpose of establishing a final settlement of administrative
costs claimed on the FACPs.

Montana did not claim SERP costs on its FACPs. Instead, on April 23, 2008, Montana
submitted a separate voucher claim for pay-as-you-go SERP costs associated with FYs 1994
through 2007.

OBJECTIVE

Our objective was to determine the allowability of SERP costs that Montana claimed for
Medicare reimbursement on a pay-as-you-go basis for FYs 1994 through 2007.

SUMMARY OF FINDING

Montana claimed some unallowable Medicare SERP costs for FYs 1994 through 2007. In total,
Montana claimed $1,023,466 of SERP costs for Medicare reimbursement; however, allowable
Medicare SERP costs were $929,068. Montana claimed $94,398 of unallowable SERP costs for
FYs 1994 through 2007 because it did not claim SERP costs in accordance with the CAS.




                                                i
RECOMMENDATION

We recommend that Montana revise its separate voucher claim to reduce claimed pay-as-you-go
SERP costs by $94,398.

AUDITEE COMMENTS

In written comments on our draft report, Montana concurred with our recommendation.
Montana’s comments are included in their entirety in the Appendix.




                                             ii
                                      INTRODUCTION

BACKGROUND

Montana and Medicare

Blue Cross Blue Shield of Montana (Montana) administered Medicare Part A and Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) until the contractual relationship was terminated November 30, 2006.

Montana sponsors a Supplemental Executive Retirement Plan (SERP) which is maintained
primarily to provide deferred compensation to a select group of management or highly
compensated employees. The SERP is a nonqualified pension plan designed to restore benefits
lost due to the Internal Revenue Code limits under the regular qualified plan. Montana claimed
SERP costs for Federal reimbursement on a pay-as-you-go basis.

CMS reimburses a portion of its contractors’ SERP costs. In claiming SERP costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards (CAS) as required by the Medicare contracts.

Following the close of each fiscal year (FY), Montana submitted a Final Administrative Cost
Proposal (FACP) to CMS reporting the administrative costs of performing Medicare functions
during the year. The SERP cost is part of the administrative cost of performing Medicare
functions and, as such, can be claimed on each FY’s FACP. In addition, Montana executed
closing agreements with CMS for the purpose of establishing a final settlement of administrative
costs claimed on the FACPs.

Montana’s Voucher Request To Claim Additional Supplemental Executive Retirement
Plan Costs

On April 23, 2008, citing the fact that FACP closing agreements with CMS had not finalized the
prior year’s SERP costs, Montana submitted a separate voucher claim for additional SERP costs.
This claim was associated with pay-as-you-go SERP costs for FYs 1994 through 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of SERP costs that Montana claimed for
Medicare reimbursement on a pay-as-you-go basis for FYs 1994 through 2007.

Scope

We reviewed $1,023,466 of SERP costs that Montana claimed for Medicare reimbursement on
the separate voucher claim that Montana submitted on April 23, 2008, for SERP costs associated
with FYs 1994 through 2007. Achieving our objective did not require that we review Montana’s



                                               1
overall internal control structure. However, we reviewed the internal controls related to the pay-
as-you-go SERP costs claimed for Medicare reimbursement to ensure that the SERP costs were
allocable in accordance with the CAS and allowable in accordance with the FAR.

We performed fieldwork at Montana’s office in Helena, Montana, in September 2008.

Methodology

We reviewed applicable Federal requirements. Additionally, we reviewed Montana’s separate
voucher claim to identify the amount of SERP costs claimed for Medicare reimbursement for
FYs 1994 through 2007. We also determined the extent to which Montana incurred SERP costs
by paying benefits relating to SERP coverage. In performing our review, we used SERP
information provided by Montana. We verified the data and used it to calculate the pay-as-you-
go SERP costs that were allowable for Medicare reimbursement for FYs 1994 through 2007. 1
We followed Montana’s approach of considering Medicare’s portion of SERP costs associated
with retirees.

We performed this review in conjunction with our audits of Medicare segmentation
(A-07-09-00295) and pension costs claimed for Medicare reimbursement (A-07-09-00296). We
used the information obtained during those audits in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                  FINDING AND RECOMMENDATION

Montana claimed some unallowable Medicare SERP costs for FYs 1994 through 2007. In total,
Montana claimed $1,023,466 of SERP costs for Medicare reimbursement; however, allowable
Medicare SERP costs were $929,068. Montana claimed $94,398 of unallowable SERP costs for
FYs 1994 through 2007 because it did not claim SERP costs in accordance with the CAS.

FEDERAL REQUIREMENTS

To be allowable for Medicare reimbursement, pension costs must be (1) measured, assigned, and
allocated in accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the
FAR.

According to the CAS 412-50(b)(3), the cost of defined-benefit pension plans that is accounted
for under the pay-as-you-go cost method shall be based on the net amount of any periodic
benefits paid, and a level annual installment required to amortize any lump-sum benefit
payments over 15 years.


1
    Through the November 30, 2006, contract termination date.


                                                          2
UNALLOWABLE SUPPLEMENTAL EXECUTIVE RETIREMENT PLAN COSTS
CLAIMED

Montana claimed $94,398 of unallowable Medicare SERP costs for FYs 1994 through 2007.
During that period, Montana claimed pay-as-you-go SERP costs of $1,023,466 for Medicare
reimbursement. We calculated the Medicare allowable SERP costs based on periodic payments
made to SERP recipients, plus a 15-year amortization of lump sum SERP payments in
accordance with CAS 412-50(b)(3). Accordingly, we determined that, based on the terms of the
Medicare contracts, the allowable pay-as-you-go SERP costs for FYs 1998 through 2007 totaled
$929,068.

The following table compares allowable pay-as-you-go SERP costs with the SERP costs claimed
on the separate voucher claim that Montana submitted on April 23, 2008.

              Comparison of Allowable SERP Costs and Claimed SERP Costs
                                 Medicare SERP Costs
                                 Allowable   Claimed
                    Fiscal Year  Per Audit By Montana Difference
                       1994              $0          $0          $0
                       1995          26,936           0      26,936
                       1996          35,914           0      35,914
                       1997          35,914           0      35,914
                       1998          35,914           0      35,914
                       1999          37,602           0      37,602
                       2000          68,723           0      68,723
                       2001          78,266           0      78,266
                       2002        104,894            0     104,894
                       2003        115,352            0     115,352
                       2004        115,855            0     115,855
                       2005        123,681            0     123,681
                       2006        128,482            0     128,482
                       2007          21,535           0      21,535
                   Voucher Claim          0   1,023,466 (1,023,466)
                        Total     $929,068   $1,023,466   ($94,398)


Montana claimed $94,398 of unallowable SERP costs because it did not claim pay-as-you-go
SERP costs in accordance with the CAS. Montana’s separate voucher claim requested
reimbursement for Medicare’s share of all benefit payments made to SERP recipients. The
payments included a lump sum distribution. Montana’s claim was incorrectly based on the full
lump sum payment rather than a 15-year amortization of the lump sum amount as required by
CAS 412-50(b)(3).




                                              3
RECOMMENDATION

We recommend that Montana revise its separate voucher claim to reduce claimed pay-as-you-go
SERP costs by $94,398.

AUDITEE COMMENTS

In written comments on our draft report, Montana concurred with our recommendation.
Montana’s comments are included in their entirety in the Appendix.




                                             4
APPENDIX
                                 APPENDIX: AUDITEE COMMENTS 



    .
   .. tlH
      ~   :.
               •
                    '
                          B1ueCross
                          Blue Shield
                        • of Montana
      Live Smarl Live Healthy."
                                                                                                              --...WIt! PwI._
                                                                                                                         1'080>. 4109

                                                                                                c . - * , , - l n . Dl..w /782I




      September 23, 2009




      Patrick J. Cogley
      Regional Inspector General for Audit Services
      Office of Inspector General
      Office of Audit $ervices, Region VII
      601 E 12"' SI, Room 0429
      Kilnsas City MO 64106


      R( : Oraft DIG Report Number: A·07·09·00297


      Dear Mr. Cogley :


      BlueCross BlueShield of Montana (BC8SMT) is In receipt of the draft copies o f the DIG r1!port entitled
      ·Re~iew      of Supplemental Execu\ivl! Retirement Plan Cosu Claimed lor Medicare Re imbuf:lf'menl by
      BCBSMT for Fisca l Ye ars 1994 Thr Ough 2007,­


      In this report. the OIG recommends that BCBSMT revise lis voucher claim for the years reviewed to
      decrease cl aimed Supplemental heculive Retirement Plan COSIS by $94,398. This amoun t represents a
      portion of a lump sum pavmen t that was required to be amortized bevond the termination date of our
      Medicilre contracts.


      BCBSMT concurs with this recommendiltion . A revised voucher will be submitted to CMS for a total
      allowable ilmount of $929.06B upon receipt of the final audit report .


      We are th ankful for ttle opportunity to respond to ttle draft report. We also appreciate ttle
      profeuionalism vour staff eKtlibited ttlrou8t1ou t th e audit . If you tlave any quest ions about our
      response, please contact Erin Frisbey, 406·444·8983.


      Sincerely,




      Brian Fitzpatrick 

      BCBSM T Director Internal Audit 





•• '.""'0'" •• «    ... , '"   I•• "., CO".. , •• II•• ,.", .... "e •• ,.o •••• "0<""0. "•.••,...... , ".,   e . o . . . . . "., ... ,., .....
